               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




              Financial Controls Over
               Passport Applications

                       Audit Report




                                              July 27, 2011

Report Number FF-AR-11-011
                                                                          July 27, 2011

                                                             Financial Controls Over
                                                              Passport Applications

                                                        Report Number FF-AR-11-011




IMPACT ON: Financial controls over            controls to strengthen the collection of
processing of passport applications.          passport photo fees, re-evaluate the fee
                                              charged for passport photos, and
WHY THE OIG DID THE AUDIT:                    provide units with instructions for
The report responds to a request from         disposition of extra photos that are no
the controller’s office to determine          longer required.
whether the U.S. Postal Service could
reconcile passport revenue generated at       WHAT MANAGEMENT SAID:
its acceptance facilities with passport       Management agreed with
applications submitted to the U.S.            recommendations 2, 3, and 4. However,
Department of State (DOS).                    management disagreed with
                                              recommendation 1 to develop a process
WHAT THE OIG FOUND:                           with the DOS to reconcile passport
We identified three areas in which the        application fees collected by acceptance
Postal Service has opportunities to           facilities with applications processed by
enhance its financial controls over           the DOS. Instead, management stated
passport applications and revenue             the Postal Service is pursuing an
associated with fees collected.               accounting system change that should
Specifically, the Postal Service needs a      increase the accountability of passport
reconciliation process concerning the         acceptance fees.
collection and financial reporting of
application fees collected at acceptance      AUDITOR’S COMMENT
facilities, improved controls over fees       Reconciliation between the DOS and
collected for passport photos, and            the Postal Service provides a higher
re-evaluation of the fee charged for          level control that can ensure the Postal
passport photos. Establishing these           Service is collecting all its revenue from
controls would provide better assurance       passport application fees, including
that units are collecting and reporting all   those in which fees may not be entered
passport revenue and fees. In addition,       into POS. Further, reconciliation with the
there could be an opportunity for             DOS should reduce the risk of loss due
increased revenue by capturing a larger       to fraudulent activities, diversion of
share of the market for passport photos.      Postal Service cash, and even
                                              transmission errors.
WHAT THE OIG RECOMMENDED:
We recommended the Postal Service             Link to review the entire report.
coordinate with the DOS to develop a
process for reconciling passport
application fees, develop unit level
July 27, 2011

MEMORANDUM FOR:            KELLY M. SIGMON
                           VICE PRESIDENT, CHANNEL ACCESS




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial Accountability

SUBJECT:                   Audit Report – Financial Controls Over Passport
                           Applications (Report Number FF-AR-11-011)

This report presents the results of our audit of the Financial Controls Over Passport
Applications (Project Number 11BG006FF000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact William Rickett, acting director,
Field Financial – Central, or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    Paul Vogel
    Timothy F. O’Reilly
    Christine R. Ray
    Elizabeth A. Richardson
    Corporate Audit and Response Management
                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Develop a Reconciliation Process with DOS ................................................................... 1

Implement Controls Over Revenue Collected for Passport Photo Fees .......................... 3

Potential for Increased Market Share of the Passport Photo Business ........................... 4

Recommendations .......................................................................................................... 5

Management’s Comments .............................................................................................. 5

Evaluation of Management’s Comments ......................................................................... 6

Appendix A: Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Objective, Scope, and Methodology ............................................................................ 7

   Prior Audit Coverage ................................................................................................... 8

Appendix B: Other Impacts ............................................................................................. 9

Appendix C. Management’s Comments ........................................................................ 10
Financial Controls Over Passport Applications                                 FF-AR-11-011




Introduction

This report presents the results of our audit of financial controls over passport
applications (Project Number 11BG006FF000). The report responds to a request from
U.S. Postal Service management to determine whether the Postal Service could
reconcile passport revenue generated at the retail units with applications submitted to
the Department of State (DOS). The objective of this audit was to evaluate financial
controls over processing of passport applications. This audit addresses financial risk.
See Appendix A for additional information about this audit.

There are approximately 6,300 postal retail units (referred to as acceptance facilities)
that process passport applications nationwide. The Postal Service charges a
$25 application fee for processing new passport applications and reported about
$170 million in revenue in fiscal year (FY) 2010 for these services. In addition, about
5,500 of these offices offer passport photos at a fee of $15 for two photos. In FY 2010,
retail units reported more than $46 million for passport photo fees. The Postal Service
represents the largest source of new applications for the DOS and, according to
estimates from an official at the DOS, approximately 70 percent of new passport
applications come from the Postal Service.

Conclusion

We identified three areas in which the Postal Service has opportunities to enhance its
financial controls over passport applications and revenue associated with fees collected.
Specifically, the Postal Service needs (1) a reconciliation process for the collection and
financial reporting of application fees collected at acceptance facilities, (2) improved
controls over fees collected for passport photos, and (3) a re-evaluation of the fee
charged for passport photos. Establishing these controls would provide better
assurance that units are collecting and reporting all passport revenue and fees. In
addition, there could be an opportunity for increased revenue by capturing a larger
share of the market for passport photos.

Develop a Reconciliation Process with DOS

The Postal Service does not have the capability to measure the profitability of its
passport program or the adequacy of financial controls between applications sent to
DOS against those processed by postal acceptance facilities. This is because the DOS
does not keep data that would allow the Postal Service to reconcile passport application
fees back to the office where they were paid. For example, the DOS does not archive
information that tracks an application to a specific Postal Service acceptance facility.
However, the DOS plans to upgrade its internal information system which, along with
other passport-related initiatives, will greatly enhance the Postal Service’s ability to
identify, quantify, and reconcile financial data to the unit level. This is important,
because it will allow managers to improve business processes, result in better

                                                1
Financial Controls Over Passport Applications                                                             FF-AR-11-011



accountability over revenue, and bring positive changes to a service that involves
thousands of customers annually.

Postal Service acceptance facilities use Postal Service (PS) Forms 5659, Daily
Passport Application (DS-11) Transmittal, to record customers’ application fees. The
facilities then mail the PS Forms 5659, customers’ applications, and DOS fees to one of
two bank processing facilities operated by Citibank under contract with the U.S.
Department of Treasury (Treasury), with DOS oversight. At one of the Citibank facilities,
we sampled 100 PS Forms 5659 to identify whether discrepancies existed between the
forms sent to DOS compared with those maintained at the Postal Service units.
However, differences between tracking information from DOS and financial data from
the Postal Service’s Standard Accounting for Retail System (SAFR) did not allow us to
identify potential revenue losses. For example, the Postal Service’s procedures for
processing applications are different depending on whether the customer chooses to
use expedited or routine processing. The expedited applications and their PS Forms
5659 are mailed individually and immediately, while the routine applications and
associated PS Forms 5659 are all mailed together, usually at the end of day. For
financial reporting purposes, all application fees, regardless if expedited or routine, are
recorded into Account Identifier Code (AIC) 264, USPS Passport Acceptance Fees.
Therefore, without having every PS Form 5659 processed from a unit for a particular
business day, it was not possible to reconcile fees reported on our sample of PS Forms
5659 to the fees on the Postal Service units’ daily financial records. 1

Because it is not possible to reconcile passport applications within the current
processes, the Postal Service should collaborate with the DOS and pursue plans to put
a reconciliation process in place. A reconcilation with the DOS would give the Postal
Service increased assurance that it is collecting the appropriate amount of revenue,
which for the last 3 years averaged about $190 million, for services provided. Based on
our work at the DOS and Postal Service units, these are some actions the Postal
Service could consider taking when implementing a reconciliation process for passport
applications:

   Creating a new and unique AIC for passport applications processed as expedited.
   Recording the unit cost center code 2 on the PS Forms 5659 sent with the
    applications. Presently, the form requires units to record the DOS-issued facility
    identification number, which DOS uses to track applications to the Postal Service
    acceptance facility. The Postal Service’s accounting system does not recognize the
    DOS facility identification number but uses the cost center code to track data to
    individual units. Therefore, the Postal Service should either include a field for the
    DOS-issued facility identification number in SAFR or request the DOS, while
1
  For the purpose of our sample, it was not possible to get every unit’s PS Forms 5659 on a certain date, because
applications/transmittals are received continually throughout the day. Therefore, we had to randomly take applications
as they came from the courier to the lockbox facility.
2
  The unit finance number is a six-digit number that identifies the retail unit in the accounting system. When the unit
finance number is combined with its four-digit unit identification number, the resulting 10-digit number is referred to as
the cost center code. The cost center code allows users to download financial data and track revenue reported by the
retail units.



                                                            2
Financial Controls Over Passport Applications                                                    FF-AR-11-011



    upgrading its current system, to implement a field that records each Postal Service
    units’ cost center code.
   Developing a revised PS Form 5659 that includes a preprinted numbering system
    similar to that used in a checkbook. The advantage of using prenumbered
    transmittals is that units could assign a block of numbers/transmittal forms to each
    passport clerk who would be accountable for the numbers assigned to them.

We learned the DOS is undertaking initiatives to increase oversight of passports,
including upgrading its information system with additional data and new reports. It has
also established an Acceptance Facility Oversight Division to monitor controls at
passport acceptance offices nationwide, including the Postal Service. The DOS set up
this division when officials realized a significant deficiency of their passport program
was the inability to trace a customer’s application to the acceptance facility or clerk who
processed the application. To correct that problem, the DOS will issue facility and
agent/clerk identification numbers which will also allow the Postal Service to track
passports to the Postal Service unit and clerk, as necessary. The DOS realized
capturing this information will require significant upgrades to its current system and
anticipate the final and full operation of the new system by September 2013. The Postal
Service has been in communication with the DOS to explore the feasibility of reconciling
its revenue fees. With both organizations discussing the details and outputs, real
progress can be made as the DOS implements changes to its information system.
Ultimately, this should result in reports that will enable the Postal Service to track and
reconcile financial data at all its acceptance facilities.

Implement Controls Over Revenue Collected for Passport Photo Fees

Controls designed to trace the number of passport photos taken to the revenue posted
in the units financial records are not effective. Specifically, units do not have
documentation showing a record of each photo taken. Postal Service policies instruct
units to verify the accuracy of photo fees and record funds collected from photo services
in AIC 241, Photo Services. 3 Postal Service officials stated providing photos is not a
core business function, and units offered photo services only as a customer
convenience. For this reason, they stated there are no plans to change any business
processes for photos.

Sound business practices support having procedures to verify that transactions were for
the correct purpose and to ensure their accuracy and completeness. Along these lines,
strengthening accounting controls over photo revenue is important considering about
5,500 locations offer passport photos, and these activities generated approximately
$46 million in FY 2010. Unit managers who we interviewed also agree. One supervisor
told us she was concerned about this financial risk, so she created an internal form the
passport clerks were required to complete. This unit’s clerks are required to document
photo fees collected on the form and keep it with the applications until verified during

3
 Administrative Support Manual (ASM) Issue 13, Section 422.2, dated July 1999; and Handbook F-101, Field
Accounting Procedures (FAP), Section 7.4, April 2011.



                                                       3
Financial Controls Over Passport Applications                                                          FF-AR-11-011



the unit’s close-out procedures. The Postal Service could also require units to use a
photo request or waiver form completed by the customer to track the number of photos
taken with the revenue collected. Without controls over photos fees, we consider the
$46 million in fees from FY 2010 to be revenue at risk. Appendix B presents a summary
of other impacts.

Potential for Increased Market Share of the Passport Photo Business

The Postal Service has not adjusted its pricing of passport photo fees since calendar
year 2005 and could be at risk for losing a piece of the market share for these services.
Postal Service officials stated they did not have a firm pricing policy for photo services,
currently set at $15 for two photos. Our analysis shows an opportunity exists to increase
business revenue and market share of passport photo revenue. From FYs 2008 through
2010, the Postal Service averaged about 43 percent of the market share for photo
revenue. In other words, less than one-half of the people who went into a Post Office™
for a passport purchased their passport photo from the unit.

Using data from FY 2010, we estimated the Postal Service could have potentially
increased their passport photo revenue by as much as $56 million if everyone
purchased their photos from the postal retail unit. A contributing factor to this low market
share could be the pricing policies for photo fees, as prices for the same photos from
other sources were lower. As depicted in Chart 1, we compared the Postal Service
photo fees to five separate commercial sources and found the Postal Service charged
anywhere from $2 to $10 more than other commercial sources. 4

                 Chart 1 – Passport Photo Fees Charged by Other Vendors

                                                                                 Number of
                           Source                             Fees                Photos
                  Walgreens                                      $9.99              2
                  Walmart®                                       $7.99              2
                  Sam’s Club                                     $4.96              2
                  FedEx®                                        $12.95              2
                  CVS/pharmacy®                                  $9.99              2
                  Postal Service                                $15.00              2

In addition, the DOS recently made a change to require only one photo submission for
each application. 5 In spite of this change, program officials said the requirement to take
two photos will remain status quo, with no plans to advise units what to do with the extra
photo. As a result, there is no consistency as to how retail units are handling the extra
photo. Some still send DOS two photos with the applications, others give the extra

4
  The fees listed represent rates consistent with what customers would pay regardless of the city or state where they
purchased photos.
5
  In March 2011, DOS changed their policy requiring only one photo to be submitted with each application rather than
two.



                                                          4
Financial Controls Over Passport Applications                                  FF-AR-11-011



photo to the customer, and others find some means to destroy it. With the sensitive
nature connected to individuals’ photos and the importance of protecting privacy
information, we believe headquarters should update its policy and issue instructions
concerning the new photo requirements from the DOS.

Recommendations

We recommend the vice president, Channel Access:

1. Coordinate with the U.S. Department of State to develop a method to facilitate
   reconciling passport application fees collected by acceptance facilities with
   applications processed by the U.S. Department of State.

2. Develop unit level controls to verify photo fees reported in Account Identifier Code
   241, Photo Fees, using source documents such as waiver forms, tracking logs or
   another method involving acknowledgement by the customer.

3. Re-evaluate and update, as determined, the fee charged for passport photos to
   determine whether changing the fees would result in more revenue to the Postal
   Service for these services.

4. Provide units with instructions for implementing the recent U.S. Department of State
   photo requirements, specifically addressing how to dispose of the second photo
   currently produced but no longer required for applications.

Management’s Comments

Management agreed with recommendations 2, 3 and 4. For recommendation 2,
management stated they will evaluate options to improve the accountability and reduce
risk of uncollected revenue associated with photo fees. Although they were unsure
whether a tracking log would effectively reduce risk, management will continue to
evaluate other options and report, by January 2012, on whether any improvements to
photo fees accountability have been made. For recommendation 3, management will
conduct an internal pricing review by January 2012 that includes decisions about
updating the price charged for providing photos. For recommendation 4, management
will provide instructions to acceptance facilities for handling of the second photo by the
end of August 2011.

However, management disagreed with the percentage of Postal Service passports
processed by the DOS and disagreed with recommendation 1 to work with the DOS to
develop a reconciliation process between passport application fees collected by
acceptance facilities with applications processed by the DOS. Instead, management
stated the Postal Service is pursuing a change in its Point of Sale (POS) accounting
system that should increase the accountability of passport acceptance fees. With this
change, the PS Form 5659 will be automated and will be printed with information the
unit clerks entered from each application. This will ensure that fees collected in POS are



                                                5
Financial Controls Over Passport Applications                                FF-AR-11-011



aligned with the passports listed on the PS Form 5659. The change to POS is
scheduled for March 2012.

Management also noted that they continue to work with the DOS to ensure that any
discrepancies between the passport applications listed on the PS Form 5659 and the
applications that are received are immediately reported to the Postal Service. See
Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to recommendations 2, 3, and 4 and corrective actions should
resolve the issues identified in the report.

Regarding recommendation 1, we commend the Postal Service for having unit level
controls and for automating certain aspects of their passport control procedures;
however, reconciliation between the DOS and the Postal Service provides a higher level
control that can ensure the Postal Service is collecting all its revenue from passport
application fees, including those in which fees may not be entered into POS.
Reconciliation with the DOS should reduce the risk of loss due to fraudulent activities,
diversion of Postal Service cash, and even transmission errors. Officials we worked with
from the DOS frequently stated they are completely open to developing reports and
giving the Postal Service whatever information management needs to reconcile
applications processed to the unit level. We are encouraged that the Postal Service will
continue to work with the DOS to ensure that any discrepancies between the passport
applications listed on the PS Form 5659 and the applications that are received are
immediately reported to the Postal Service. We will not pursue this recommendation
through the audit resolution process.

Concerning the first finding, management cited figures that showed about 49 percent of
all passports issued came from the Postal Service. The focus of our audit was on the
process for new applications, because that is when the Postal Service collects the $25
application fee. As a result, we updated our report to reflect that about 70 percent of
new, not all, applications come from the Postal Service.




                                                6
Financial Controls Over Passport Applications                                                   FF-AR-11-011



                                     Appendix A: Additional Information

Background

In 1975 the Postal Service began accepting passport applications for the DOS. Today,
Post Offices, public libraries, and courthouses can all accept passport applications and
mail them to the DOS for processing if they choose to participate in the program and are
approved by the DOS to accept applications. The Postal Service offers these services
as a convenience for its customers and as a source of additional revenue. The Postal
Service processes applications on a walk-in or appointment basis at 6,328 units across
the nation and offers passport photos for an additional fee at 5,521 of those units. 6 The
DOS has assigned each of these offices an acceptance facility identification number.

Postal Service employees certified by the DOS are authorized as passport acceptance
agents. The DOS requires acceptance agents to be citizens of the U.S. and not have
any felony convictions. The Postal Service requires their acceptance agents to take
annual training on internal passport procedures in addition to recertification with the
DOS. The DOS is in the process of assigning unique agent identification numbers to
each agent certified.

Retail units record customers’ application fees on a transmittal 7 and mail the original
transmittal, customers’ applications, and DOS fees to a Post Office Box™ either in
Pennsylvania or in California, depending on the retail unit’s location. The original
transmittal and passport applications are picked up from the Post Office Boxes and
delivered to one of two bank processing facilities operated by Citibank under contract
with the Treasury with DOS oversight. Citibank deposits the DOS fees and routes the
applications to one of approximately 24 DOS facilities, which complete the passports
and mail them to customers.

Objective, Scope, and Methodology

The objective of the audit was to evaluate financial controls over processing of passport
applications. We conducted this performance audit from October 2010 through
July 2011 in accordance with generally accepted government auditing standards and
included such tests of internal controls as we considered necessary under the
circumstances. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives. We discussed our observations and conclusions with management on
June 2, 2011, and included their comments where appropriate.




6
    These figures reflect counts of Postal Service application facilities as of January 2011.
7
    PS Form 5659, dated January 2011.



                                                              7
Financial Controls Over Passport Applications                                     FF-AR-11-011



We assessed the reliability of computer-generated data by performing electronic testing
of required data elements. We verified accuracy of the data by confirming our analysis
and results with Postal Service management and other data sources. In addition, the
OIG tests the financial information in the Enterprise Data Warehouse as part of its
annual financial statements audits. We determined that the data were sufficiently
reliable for the purposes of this report.

Prior Audit Coverage

The U.S. Government Accountability Office (GAO) issued a report in FY 2009 titled
Undercover Tests Reveal Significant Vulnerability in State’s Passport Issuance Process
(GAO Report Number 09-447, dated March 13, 2009). The report disclosed that
terrorists or criminals could steal an American citizen’s identity, use counterfeiting skills
to create fraudulent documentation, and obtain a U.S. passport.




                                                8
Financial Controls Over Passport Applications                                                         FF-AR-11-011



                                       Appendix B: Other Impacts

                                                 Other Impacts

                 Finding                          Impact Category                          Amount
            Implement                              Assets at Risk 8                       $46 million
            Controls Over
            Revenue
            Collected for
            Passport Photo
            Fees




8
  Assets or accountable items (for example, cash, stamps, and money orders) that are at risk of loss, because of
inadequate internal controls.



                                                          9
Financial Controls Over Passport Applications                  FF-AR-11-011



                           Appendix C. Management’s Comments




                                                10
Financial Controls Over Passport Applications        FF-AR-11-011




                                                11
Financial Controls Over Passport Applications        FF-AR-11-011




                                                12
